DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General


  Independent Review of The U.S. Customs
     and Border Protection’s Reporting of
    Fiscal Year 2006 Drug Control Funds




OIG-07-69                  August 2007
                                                                              Ofjce of Inspector Geneml

                                                                              U.S. Department of Homeland Security
                                                                              Washington, DC 20528


                                                                              Homeland
                                                                              Security
                                   AUG 2 2 2007



MEMORANDUM FOR.                W. Ralph Basham
                               Commissioner
                               U.S. Customs and Border Protection       -.,



FROM.                          Richard L. Skinner  p!(flL.JkLI
                               Inspector General

SUBJECT:                       Independent Review of the U.S. Customs and Border Protection's
                               Reporting of FY 2006 Drug Control Funds

We have reviewed management's assertions in Section B of the accompanying U.S. Customs and
Border Protection's (CBP) annual report of FY 2006 drug control funds (Submission). The
Submission, including the assertions made, is required by 21 U.S.C. 5 1704(d) and Office of
National Drug Control Policy (ONDCP) Circular, Drug Control Accounting (Circular), and is the
responsibility of CBP's management.

Our review was conducted according to attestation standards established by the American Institute
of Certified Public Accountants. A review is substantially less in scope than an examination, the
objective of which is the expression of an opinion on the assertions in Section B of the Submission.
Accordingly, we do not express such an opinion as a result of our review.

The Independent Auditors ' Report for the FY 2006 financial statements of the Department of
Homeland Security (DHS), of which CBP is a part, addresses material weaknesses related to
financial management, financial reporting, and financial systems. However, none of these were
attributable to CBP. Reportable conditions are matters coming to the auditors' attention relating to
significant deficiencies in the design or operation of the internal control over financial reporting that,
in the auditors' judgment, could adversely affect DHS' ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial statements.
Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the financial statements being audited, may occur and
not be detected within a timely period by employees in the normal course of performing their
assigned functions.
Based on our FY 2006 review, nothing came to our attention that caused us to believe that
management's assertions included in Section B of the accompanying Submission (Attachment A) are
not fairly stated in all material respects based on the criteria set forth in the Circular.

During our FY 2005 review, we did not perform any tests related to reprogrammings and transfers
due to what we considered "incomplete criteria against which to evaluate the subject matter, in terms
of measurability and applicability for multi-mission bureaus." However, ONDCP later requested
that we perform additional procedures in these areas to satisfy the requirements. During the
performance of these additional procedures, we noted that CBP did not have formal mechanisms or
procedures in place to track reprogrammings and transfers affecting drug funds as they occur, or to
alert management when the $5 million threshold is reached so that the necessary approvals can be
obtained from ONDCP. As such, we conducted an FY 2006 review of CBP's handling of
reprogrammings. We noted that the agency now has a manual process for tracking reprogrammings.
However, no formal procedures have been developed to manage the process. Based on the
information provided by CBP and from our inquiries, reprogrammings did not meet the $5 million
threshold in FY 2006.

Also, in our FY 2005 review we did not test CBP's compliance with ONDCP issued Fund Control
Notices due to what we considered "incomplete criteria against which to evaluate the subject matter,
in terms of measurability and applicability for multi-mission bureaus." However, in our FY 2006
review we asked CBP Budget personnel about the procedures in place to alert them concerning
compliance with the Fund Control Notices. They informed us that they monitor drug obligations on
a monthly basis to determine compliance. They also informed us that obligations to date were
compared to one-third of the total drug request to determine whether more was obligated than
authorized by the Fund Control Notice prior to having their financial plan approved. We
recommend that CBP document the procedures used to make this determination.

We provided a copy of this report in draft to CBP. CBP had no comment on the report.

This report is intended solely for the information and use of CBP, DHS, ONDCP, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.

Should you have any questions, please call me, or your staff may contact James L. Taylor,
Deputy Inspector General, at (202) 254-4100.
                                                                                                    Attachment A

                          DEPARTMENT OF HOMELAND SECURITY
                           CUSTOMS AND BORDER PROTECTION
                        Annual Reporting of FY 2006 Drug Control Funds


DETAILED ACCOUNTING SUBMISSION

A. Table of FY 2006 Drug Control Obligations

                                                     (Dollars in Millions)

         Drua Resources bv Function:
            Intelligence                                                      $   219.258
            Interdiction                                                        1.210.190
              TOTAL                                                           $ 1,429.448

         Drug Resources bv A ~ ~ r o ~ r i a t i o n :
            Salaries and Expenses                                             $ 1,022.920
            -
            Air                                                                   406.528
              TOTAL                                                           $ 1,429.448



   1. Drug Methodology

       On the basis of past practice, five organizations within Customs and Border
       Protection (CBP), the Offices of: Border Patrol; Field Operations; Information
       Technology; Training and Development; and CBP Air were provided with guidance on
       preparing estimates for the FY 2006 annual reporting of drug control funds. These
       offices were asked to estimate, on the basis of their expert opinion, what portion of their
       activities is related to drug enforcement. In addition, these organizations were also asked
       to only provide data for obligations against budget authority that became available in
       FY 2006.

       All five organizations identified resources in their financial plans that support the drug
       enforcement mission of the agency.

       OFFICE OF BORDER PATROL

       There are over 12,000 Border Patrol agents that are assigned the mission of detecting
       and apprehending illegal entrants between the ports-of-entry along the 8,000 miles of the
       United States borders. These illegal entries include aliens and drug smugglers, potential
       terrorists, wanted criminals, and persons seeking to avoid inspection at the designated
       ports of entry due to their undocumented status, thus preventing their illegal entry. It has
       been
         ,   .determined
                .     . . .that 15 percent. of.. the. total agent time nationwide is related to drug
       l                             a                          n                             s and
       certain illegal drugs that are concealed within cargo containers, truck trailers, passenger
       vehicles and boats. In addition, agents perform line watch functions in targeted border
       areas that are frequent entry points for the smuggling of drug6 and people into the United
       States.

       OFFICE OF FIELD OPERATIONS

       The Office of Cargo Conveyance and SecurityINon-IntrusiveInspection Division of the
       Office of Field Operations estimates that, as of August 2006, there were 2,600 CBP
Officer positions that are related to drug enforcement called Enforcement Team Officers.
In August 2003, CBP established a Consolidated National lnspectional Anti-Terrorism
Contraband Enforcement Team (A-TCET) Policy. Under A-TCET, the former Contraband
Enforcement Team (CET), Manifest Review Unit (MRU), Non-Intrusive Inspection,
Canine, and Outbound teams will be united to form a single enforcement team, A-TCET.
The A-TCET also works closely with the Passenger Enforcement Rover Team (PERT)
and Passenger Analytical Unit (PAU) teams to coordinate all enforcement activities.
Although the primary mission of the A-TCET teams is anti-terrorism, they will also focus
on all types of contraband, including narcotics. It is estimated that 85 percent of the A-
TCET is devoted to drug enforcement. The smuggling methodologies and their indicators
are believed to be similar for both narcotics and anti-terrorism activities.

As of August 2006, there was a total of 574 Canine Enforcement Officers. Included in the
total were 320 Narcotics Detection Teams, 10 Currency Detection Teams and 138
Narcotics/Human Smuggling Detection Teams that were nearly 100 percent devoted to
smuggling interdiction. Also included in the total, but not scored for narcotics
enforcement are 82 Agricultural Teams, and 24 Explosive Detection Teams.

As of August 2006, there was also 14,289 Other CBP Officers that in addition to the
interdiction of contraband and illegal drugs enforce hundreds of laws and regulations of
many other Federal government agencies. For example, these agencies include the U.S.
Fish and Wildlife Service, the Bureau of Alcohol, Tobacco, Firearms and Explosives, and
the Bureau of Export Administration among many others. CBP subject matter experts
estimate that roughly 30 percent of these officers' time is devoted to drug-related
activities.

OFFICE OF INFORMATION TECHNOLOGY

The Office of Information Technology (OIT) supports the drug enforcement mission
through the acquisition, and support and maintenance of technology, such as non-
intrusive inspection systems and mission critical targeting software systems. Of OIT's
spending, 50 percent of base of the Enforcement Technology Center; 100 percent of
ATS-Narcotics systems software costs, 50 percent of the Treasury Enforcement
Communications System (TECS) and ATS-Passenger software costs; and 10 percent of
data center operations costs are estimated in support of the drug mission.

OFFICE OF TRAINING AND DEVELOPMENT

The Office of Training and Development (OTD) arrived at its estimates by reviewing all
courses conducted to determine if the course contained drug enforcement related
material. If the course was found to contain drug related material, the funding attributed
to the course was then multiplied by the drug content percentage based on the drug
budget methodology. Other resources were attributed to drug enforcement activities at a
rate of 31 percent based on the diverse nature of OTD's programs such as anti-terrorism,
career development, and transition training of the legacy workforce.

CBP AIR and Marine

CBP Air's core competencies are air and marine interdiction, air and marine law
enforcement, and air domain security. In this capacity, CBP Air and Marine targets the
conveyances that illegally transport narcotics, arms, and aliens across our borders and in
the Source, Transit and Arrival Zones. In support of Source and Transit Zone interdiction
operations, the CBP Air and Marine P-3 Program has dedicated a minimum of 7,200
                                                        -
hours a year in support of Joint Interagency Task Force South. This support has been
instrumental in record seizures over the past two years.
      Although 90 percent of the resources that support CBP Air and Marine are considered to
      be drug-related, since September 11, 2001, Air and Marine has steadily increased its
      support to counter-terrorismby developing a more cohesive and integrated response to
      national security needs as well as more emphasis on illegal immigration. Currently, Air
      and Maine is dedicating significant assets and personnel in support of Operation
                 -
      HALCON a USIMexico interdiction initiative, and support to the Office of Border Patrol
      in Southwest Border illegal alien intervention.


   2. . Methodology Modifications

       There were no methodology modifications since last year.


   3. Material Weakness or Other Findings

       There were no material weaknesses or other findings by independent sources, or other
       known weaknesses, which may affect the presentation of prior year drug-related
       obligations data.


   4. Reprogramming or Transfers

       There are no reprogrammings or transfers that affected drug-related budgetary resources
       in excess of $5 million.


   5. Other Disclosures

       There are no other disclosures as we feel are necessary to clarify any issues regarding
       the data reported under this circular.


B. Assertions

   1. Drug Methodology

       CBP asserts that the methodology used to estimate drug enforcement related obligations
       and FTE utilization is reasonable and accurate. The criteria associated with this
       assertion are as follows:

       a. Data

           The estimate of drug enforcement related costs is based on the methodology
           described in section A.l above, and presents a fair and accurate picture of the CBP


       b. Other Estimate Methods

           There are no other estimation methods that are used as part of the drug
           methodology.

       c. Financial Systems

           CBP's financial systems are capable of providing data that fairly present, in all
           material respects, aggregate obligations. The drug methodology described in section
       A.1 above is used to estimate what portion of these obligations may reasonably be
       considered to be associated with drug enforcement related activities.

2. Application of Methodology

   The methodology described in section A.1 above was used to prepare the estimates
   contained in this report.


3. Reprogramming or Transfers

   No changes were made to CBP's Financial Plan that required ONDCP approval per the
   ONDCP Circular dated April 18, 2003.

4. Fund Control Notices

   The data presented are associated with obligations against the financial plan that fully
   complied with the fund control notice issued by the Director of The Office of National
   Drug Control Policy on September 13, 2004.
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
